         l-J /   j




                                                         NA TIONAL SCIENCE FOUNDATION 

                                                          OFFICE OF INSPECTOR dENERA~ 

                                                            OFFICE OF INVESTIGATIONS 


                                                 CLOSEOUTMEMOR<\NDUM
                                                                   .       i




  Case Number:AI0070050                                                                         Page 1 of1
                                                                                                  ~    .




                                                                                                             2
                 We reviewed an allegation ofplagimism in an NSF proposal. 1 We contacted the Subject ,
          who acknowledged having inadequately cited some material. He said that he would work on better
          paraphrasing.

                  Determining the amount of copied material to be below the threshold for further
          investigation, we sent the Subject a letter, reminding him of the importance of properly citing text.
          and figures within NSF proposals.                                                        -,

                     Accordingly, this case is closed.




                                                                   ..  I


NSF OIG Form 2 (11102)
                                                                                   .   ,
